No.
IN THE SUPREME COURT OF THE UNITED STATES
October Term 2020
LANTREL DEKEITH WILSON,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

MOTION TO PROCEED IN FORMA PAUPERIS
6th Circuit Case No. 19-1367

MARK E. BROWN (TN. BPR #021851)*
Attorney for the Petitioner Lantrel
DeKeith Wilson appointed under the
provisions of the Criminal Justice Act,
18 U.S.C.ยง3006A
MENEFEE & BROWN, P.C.
9724 Kingston Pike, Ste. 505
Knoxville, Tennessee 37922
Phone: (865) 357-9800
Fax: (865) 357-9810
e-mail: mbrown@menefeebrown.com
*Counsel of Record (CJA)

MOTION TO PROCEED IN FORMA PAUPERIS
COMES Lantrel DeKeith Wilson, by and through his court-appointed counsel, and
pursuant to United States Supreme Court Rule 39, and respectfully moves this Honorable Court
for leave to proceed in forma pauperis. In support of this Motion and for good cause shown,
Lantrel DeKeith Wilson, by and through counsel states that he was represented in all proceedings
in the United States District Court for the Western District of Michigan and in the United States
Court of Appeals for the Sixth Circuit by counsel who was appointed pursuant to the Criminal
Justice Act of 1964, as amended. Pursuant to United States Supreme Court Rule 39.1 and 18
U.S.C. ยง3006A(d)(7), no affidavit or declaration of indigency is required.
Respectfully submitted this 14th day of July 2020.
/s/ Mark E. Brown
Mark E. Brown (TN. BPR #021851)
Attorney for the Petitioner Lantrel DeKeith
Wilson appointed under the provisions of the
Criminal Justice Act, 18 U.S.C. ยง3006A
MENEFEE & BROWN, P.C.
9724 Kingston Pike, Ste. 505
Knoxville, Tennessee 37922
Phone: (865) 357-9800
Fax: (865) 357-9810
e-mail: mbrown@menefeebrown.com

CERTIFICATE OF SERVICE
I hereby certify that a true and exact copy of this document has been served on SOLICITOR
GENERAL OF THE UNITED STATES, DEPARTMENT OF JUSTICE, Room 5614, 950
Pennsylvania Avenue, N.W., Washington, D.C. 20530-0001 by placing the same in the United
States Mail, first class postage pre-paid on this 14th day of July 2020.

/s/ Mark E. Brown
Mark E. Brown
Attorney for Lantrel DeKeith Wilson, appointed under the
Provisions of the Criminal Justice Act, 18 U.S.C. ยง3006A

